                         U.S. Department of Agriculture

                            Office of Inspector General
                             Financial & IT Operations




              Audit Report

Fiscal Year 2006 Federal Information Security
          Management Act Report




                                Report No. 50501-7-FM
                                      September 2006
                UNITED STATES DEPARTMENT OF AGRICULTURE

                            OFFICE OF INSPECTOR GENERAL


                                 Washington D.C. 20250




September 29, 2006



The Honorable Rob Portman
Director
Office of Management and Budget
Eisenhower Executive Office Building
1650 Pennsylvania Avenue NW.
Washington, D.C. 20503

Subject: Fiscal Year 2006 Federal Information Security Management
         Act Report (Audit Report No. 50501-7-FM)

Dear Director Portman:

This report presents the results of our audits of the Department of Agriculture’s
(USDA) efforts to improve the management and security of its information
technology (IT) resources. USDA and its agencies have taken numerous actions
to improve the security over their IT resources; however, additional actions are
still needed toward establishing an effective security program.

Sincerely,


/s/

Phyllis K. Fong
Inspector General
Executive Summary
Fiscal Year 2006 Federal Information Security Management Act Report (Audit Report
No. 50501-7-FM)

Results in Brief              The efforts of the U.S. Department of Agriculture’s (USDA) Office of the
                              Chief Information Officer (OCIO) and the Office of Inspector General (OIG)
                              in the past few years have heightened program management’s awareness of
                              the need to plan and implement effective information technology (IT)
                              security. The National Information Technology Center, located in Kansas
                              City, MO sustained its unqualified opinion on its general control structure.
                              The Office of the Chief Financial Officer’s National Finance Center, located
                              in New Orleans, LA received its first unqualified opinion on its design of its
                              general control structure. While its opinion on the effectiveness of its
                              controls remained qualified, this was primarily attributed to the devastation
                              caused by Hurricane Katrina. Although other agencies accelerated their
                              efforts to comply with Federal information security requirements during the
                              fiscal year, we continued to find significant weaknesses that can be attributed
                              to a lack of management oversight and monitoring at both the Department
                              and its agencies. While progress has been made, there is still much to be
                              accomplished. An effective IT security program needs time to mature. Due
                              to the significance of these weaknesses, the Department cannot be assured
                              that its systems and data are adequately secured.

                              OCIO noted 1 that it is formulating a process for initiating, reviewing, and
                              updating the Department’s policies to provide guidance for improving
                              compliance with Office of Management and Budget (OMB) requirements,
                              National Institute of Standards and Technology (NIST) guidance, and
                              Departmental Regulations (DR). OCIO reported that it is performing a gap
                              analysis to prioritize required policy work and developing a program to
                              review and update existing policies. In addition, OCIO has implemented a
                              security review program to evaluate the accuracy of information provided by
                              the agencies to improve the effectiveness of their security programs.
                              However, until these controls are in place, operating, and effectively
                              established, IT management and security remain a material internal control
                              weakness for the Department.

                              This report constitutes the independent evaluation required of OIG of the
                              Department’s IT security program and practices by the Federal Information
                              Security Management Act (FISMA).

                              The following summarizes the weaknesses discussed in exhibit A of this
                              report, in which we respond to OMB’s questions as required by OMB

1
 Chapters 4 and 5 of the OCIO FISMA report detail where improvements are underway and/or planned for correcting the material
weaknesses within the Department.
USDA/OIG-A/50501-7-FM                                                                                               Page i
                                  Memorandum No. M-06-20, “Fiscal Year 2006 Reporting Instructions for the
                                  Federal Information Security Management Act and Agency Privacy
                                  Management.”

                                   •   During fiscal year 2006, OCIO implemented an annual Departmentwide
                                       IT system inventory requirement. However, we were unable to reach a
                                       conclusion on the accuracy/completeness of the inventory because OCIO
                                       relied on the agencies to report system inventory without validating the
                                       information reported. OCIO was unable to verify the accuracy and/or
                                       reliability of those agency-provided inventories. Our review of the
                                       inventory disclosed that the total number of systems declined from 460
                                       in fiscal year 2005 to 260 in fiscal year 2006. The vast majority of this
                                       decline was due to a consolidation of systems at one agency. The agency
                                       went from 189 systems to 15, and most of the consolidation was done
                                       based on geographical location, rather than system characteristics.

                                   •   The consolidation of systems, discussed above, resulted in the
                                       inadequate oversight of the Department’s Privacy Act implementation.
                                       We noted that it was difficult to determine which systems had the
                                       documentation required to comply with the law. We reviewed 13
                                       privacy impact assessments and found that 6 did not answer one or more
                                       of the questions adequately and another was not in the required format.
                                       We also found that two of the Statement of Record Notices, required by
                                       law, were not published in the Federal Register.

                                   •   Agencies had not followed NIST guidance when preparing security
                                       plans, risk assessments, and disaster recovery plans. During fiscal year
                                       2006, the Department acknowledged that certification and accreditation
                                       (C&A) documentation submitted prior to October 1, 2005, was
                                       inadequate and instituted a concurrency review process where second
                                       party approval was required prior to recommending agency
                                       accreditation. We found this process needed enhancements. We
                                       concluded that the three concurrency reviews we examined should not
                                       have resulted in approval for agency accreditation. For example, two of
                                       the reviews were performed on C&A documentation associated with the
                                       legacy systems that were being replaced.

                                  •    The Department reported the level of C&A compliance in its quarterly
                                       reports to OMB. However, we noted that eight systems had only
                                       obtained a conditional approval to operate. OMB policy states that an
                                       information system should not be accredited during a period of limited
                                       authorization to operate. 2



2
    OMB Circular No. A-130, Appendix III, “Security of Federal Automated Information Resources,” dated November 28, 2000.
USDA/OIG-A/50501-7-FM                                                                                                       Page ii
                      •   Department oversight over contingency planning and testing information
                          needed improvement. We reviewed the Department’s system for storing
                          contingency and disaster recovery plans and found some systems were
                          not included and others were missing critical information. We examined
                          a sample of five test plans and found that they lacked specific success
                          criteria, detailed schedules, scenarios and notification procedures, and/or
                          internal or external connectivity.

                      •   The Department implemented a new system to track plan of actions and
                          milestones (POA&M) during fiscal year 2006. While this was a marked
                          improvement over the legacy reporting system, numerous problems were
                          encountered during implementation. Specifically we found that known
                          IT weaknesses were not reported, not all weaknesses were tracked,
                          conflicting information was reported, and agencies did not ensure that
                          corrective actions were taken before closing out the weaknesses. In
                          addition, the information contained in the system was not being used to
                          report to OMB. One agency reported no weaknesses in the quarterly
                          OMB submission, even though the system included 35 open weaknesses
                          and its yearly internal self assessment reported 349 weaknesses.

                      •   We noted that improvements were needed in the Department’s reporting
                          of system risk categories. For example, we found that two general
                          support systems were rated as moderate risk even though those systems
                          processed data from 18 high risk applications. In another example, a
                          system that stored information on biological agents and toxins was rated
                          as moderate risk.

                      •   Annual risk assessments within the Department did not include an
                          assessment of actual controls within the systems. One agency reported
                          that change management was fully implemented, yet our audit disclosed
                          that its policies and procedures were ineffective. In another assessment
                          the agency listed 93 controls as not applicable, because the hosting
                          agency was responsible for them. Our audit disclosed that some of the
                          controls did belong to the agency and should have been assessed. During
                          our fiscal year 2006 review, we determined that the OCIO had changed
                          the level where a functional area is rated deficient and therefore needs a
                          POA&M. Through fiscal year 2005, deficiency was defined as a
                          functional area rated at level 3 (procedures and controls are implemented)
                          or less. For fiscal year 2006, that level had changed to 2 (documented
                          procedures and controls) or less. This change required agencies to report
                          and remediate fewer weaknesses. OCIO was unable to provide an
                          explanation to support this change in reporting weaknesses from agency
                          self-assessments.

                      •
                      The Department implemented a security review program to periodically
                      evaluate the accuracy of information provided by the agencies and
USDA/OIG-A/50501-7-FM                                                             Page iii
                                     provide effective oversight of agency security programs. However, we
                                     found that this program needed improvements. We noted that in the 8
                                     reviews performed during fiscal year 2006, there were 123 weaknesses
                                     identified by OCIO. Of those, only 52 were addressed in the agency
                                     POA&Ms. This occurred because the Department did not always follow-
                                     up on the findings to ensure the agencies were accurately mitigating
                                     weaknesses. In addition, the reviews could be enhanced by including
                                     checklists to help ensure consistency.

                                •    We found that USDA’s Information Security Status (scorecard) did not
                                     always contain accurate information. We found that agencies were not
                                     properly reporting the status of their programs in the monthly or quarterly
                                     updates to OMB. As noted in this report, we found inaccurate reporting
                                     by the agencies in every category except security awareness training.

                                •    We completed four stand-alone IT security audits that fed into our
                                     FISMA consolidation. We also ensured that the IT security audit
                                     coverage for our fiscal year 2006 financial statement audits was
                                     completed in time to be consolidated into our FISMA report. We noted
                                     that configuration management within the Department was not always
                                     effective. Although most agencies had policies and procedures, we found
                                     that they were not always followed. We found that controls were not
                                     always implemented to help ensure that system software changes were
                                     properly authorized, documented, tested, and monitored.

                                •    We noted that the Department’s vulnerability scanning and patch
                                     management program needed improved oversight. We found that the
                                     number of devices that needed scanning varied significantly on a monthly
                                     basis. In addition, at one agency, we found that 6,270 devices needed
                                     scanning and 10,505 devices needed patches. 3           We also noted
                                     unmitigated vulnerabilities that were not reported as weaknesses on
                                     agency POA&Ms. The OCIO did not review agency scan and patch
                                     certificates for accuracy or viability.

                                •    We noted that incident reporting within the Department needed
                                     improvement. We found that incidents were not always tracked, reported
                                     to appropriate authorities, and/or closed timely. For example, our review
                                     of incidents reported through July 15, 2006, disclosed that (1) incidents
                                     were not always closed within 30 days, (2) incidents were missing from
                                     the tracking spreadsheet, (3) incidents were not always reported to
                                     appropriate authorities, and (4) false positives documentation was deleted
                                     and not further tracked, even though some were ultimately found to be
                                     actual incidents. In addition, we found that an incident tracking database

3
 Scanning should be performed on all devices on the network, while patching is done only as new vulnerabilities are found and vendors
mitigate them. The number of devices patched should not significantly outnumber the total number of devices scanned.
USDA/OIG-A/50501-7-FM                                                                                                      Page iv
                                         had not been implemented, even though we had initially recommended
                                         that this weakness be remediated during fiscal year 2002 and the
                                         Department agreed to do so.

                                    •    We noted that the Department needed an internet protocol (IP) address
                                         inventory system. We have reported since fiscal year 2001 that the
                                         Department needed an IP address tracking system and the Department
                                         agreed to do so.

                                     Due to the significance of these issues, information technology (IT) security
                                     remains a material internal control weakness for the Department.

Recommendation
In Brief                            This report presents the results of our audit work in assessing the security
                                    over the Department’s IT resources. The recommendations we made to
                                    correct the deficiencies identified in this evaluation have been documented in
                                    other agency reports and we are not making additional recommendations in
                                    this report. 4




4
 See exhibit B for a listing of those reports.
USDA/OIG-A/50501-7-FM                                                                                      Page v
Abbreviations Used in This Report

APHIS             Animal and Plant Health Inspection Service
C&A               certification and accreditation
CCC               Commodity Credit Corporation
CIO               Chief Information Officer
DA                Departmental Administration
DM                Departmental Manual
FCIC              Federal Crop Insurance Corporation
FIPS              Federal Information Processing Standards Publication
FISMA             Federal Information Security Management Act
FNCS              Food, Nutrition, and Consumer Services
FSA               Farm Service Agency
FS                Forest Service
GAO               Government Accountability Office
GISRA             Government Information Security Reform Act
IG                Inspector General
IP                internet protocol
IT                Information Technology
ITS               Information Technology Services
NFC               National Finance Center
NIST              National Institute of Standards and Technology
NITC              National Information Technology Center
NRCS              Natural Resources Conservation Service
OCFO              Office of the Chief Financial Officer
OCIO              Office of the Chief Information Officer
OMB               Office of Management and Budget
OIG               Office of Inspector General
POA&M             plan of actions and milestones
RMA               Risk Management Agency
RD                Rural Development
SP                Special Publication
TSO               Telecommunication Services Operations
US-CERT           United States Computer Emergencies Readiness Team
USDA              U.S. Department of Agriculture
UTN               Universal Telecommunications Network




USDA/OIG-A/50501-7-FM                                                    Page vi
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................vi

Background and Objectives ................................................................................................................... 1

Scope and Methodology.......................................................................................................................... 4

Exhibit A – OMB Reporting Requirements and USDA OIG Position .............................................. 5

Exhibit B – Audits Referenced to in the Report................................................................................. 22




USDA/OIG-A/50501-7-FM                                                                                                                   Page vii
Background and Objectives
Background         Improving the overall management and security of information technology
                   (IT) resources is a top priority in the U.S. Department of Agriculture
                   (USDA). As technology has enhanced the ability to share information
                   instantaneously among computers and networks, it has also made
                   organizations more vulnerable to unlawful and destructive penetration and
                   disruption. Insiders with malicious intent, recreational and institutional
                   hackers, and attacks by intelligence organizations of other countries are just a
                   few of the threats that pose a risk to the Department’s critical systems and
                   data.

                   On December 17, 2002, the President signed into law the E-Government Act
                   (Public Law 107-347), which includes Title III, the Federal Information
                   Security Management Act (FISMA). FISMA permanently reauthorized the
                   framework established in the Government Information Security Reform Act
                   (GISRA) of 2000, which expired in November 2002. FISMA continues the
                   annual review and reporting requirements introduced in GISRA. In addition,
                   FISMA includes new provisions aimed at further strengthening the security
                   of the Federal Government’s information and information systems, such as
                   the development of minimum standards for agency systems. The National
                   Institute of Standards and Technology (NIST) has been tasked to work with
                   agencies in the development of those standards per its statutory role in
                   providing technical guidance to Federal agencies.

                   FISMA supplements information security requirements established in the
                   Computer Security Act of 1987, the Paperwork Reduction Act of 1995, and
                   the Clinger-Cohen Act of 1996, and is consistent with existing information
                   security guidance issued by the Office of Management and Budget (OMB)
                   and NIST. Most importantly, however, the provisions consolidate these
                   separate requirements and guidance into an overall framework for managing
                   information security and establishing new annual reviews, independent
                   evaluation, and reporting requirements to help ensure agency implementation
                   and both OMB and congressional oversight.

                   FISMA assigns specific responsibilities to OMB, agency heads, Chief
                   Information Officers (CIO), and Inspectors General (IG).            OMB is
                   responsible for establishing and overseeing policies, standards, and
                   guidelines for information security. This includes the authority to approve
                   agency information security programs. OMB is also required to submit an
                   annual report to Congress summarizing the results of agencies’ evaluations of
                   their information security programs.

                   Each agency must establish an agency-wide risk-based information security
                   program to be overseen by the agency CIO and ensure that information


USDA/OIG-A/50501-7-FM                                                                       Page 1
                   security is practiced throughout the lifecycle of each agency system.
                   Specifically, this program must include:

                        •   Periodic risk assessments that consider internal and external threats
                            to the integrity, confidentiality, and availability of systems, and to
                            data supporting critical operations and assets;

                        •   development and implementation of risk-based, cost-effective
                            policies and procedures to provide security protections for
                            information collected or maintained by or for the agency;

                        •   training on security responsibilities for information security
                            personnel and on security awareness for agency personnel;

                        •   periodic management testing and evaluation of the effectiveness of
                            policies, procedures, controls, and techniques;

                        •   a process for      identifying   and   remediating   any   significant
                            deficiencies;

                        •   procedures for detecting, reporting, and responding to security
                            incidents; and

                        •   an annual program review by agency program officials.

                   In addition to the responsibilities listed above, FISMA requires each agency
                   to have an annual independent evaluation of its information security program
                   and practices, including control testing and compliance assessment. The
                   evaluations are to be performed by the agency IG or an independent
                   evaluator, and the results of these evaluations are to be reported to OMB.

Objectives         The audit objective was to form a basis for conclusion regarding the status of
                   USDA’s overall IT security program by:

                        •   Evaluating the effectiveness of the Office of the Chief Information
                            Officer’s (OCIO) oversight role of agency CIOs and FISMA
                            compliance;

                        •   determining whether agencies have maintained an adequate system
                            of internal controls over IT assets in accordance with FISMA and
                            other appropriate laws and regulations;

                        •   evaluating OCIO’s progress in establishing a Departmentwide
                            security program; and



USDA/OIG-A/50501-7-FM                                                                      Page 2
                        •   evaluating the agencies’ and OCIO’s plan of actions and milestones
                            consolidation and reporting process.




USDA/OIG-A/50501-7-FM                                                                  Page 3
Scope and Methodology
                             The scope of our review was Departmentwide and agency audits relating to
                             information technology (IT) completed during fiscal year 2006. We conducted
                             this audit in accordance with Government Auditing Standards.

                             Fieldwork for this audit was performed at the Department OCIO from July to
                             September 2006. In addition, the results of IT control testing and compliance
                             with laws and regulations performed by contract auditors at three additional
                             agencies are included in this report. Further, the results of our most recent
                             general control and application control reviews were considered and
                             incorporated into this report. In total, our fiscal year 2006 audit work covered
                             10 agencies and staff offices: Animal and Plant Health Inspection Service
                             (APHIS), Food, Nutrition, and Consumer Services (FNCS), Forest Service (FS),
                             Farm Service Agency (FSA) (includes Commodity Credit Corporation (CCC)),
                             Natural Resources Conservation Service (NRCS), Office of the Chief Financial
                             Officer (OCFO), OCIO (includes Information Technology Services (ITS) and
                             National Information Technology Center (NITC) Telecommunication Services
                             Operations (TSO)), Rural Development (RD), Risk Management Agency
                             (RMA) (includes Federal Crop Insurance Corporation (FCIC)), and
                             Departmental Administration (DA). These agencies and staff offices operate
                             approximately 172 of the OCIO estimated 260 general support and major
                             application systems within the Department. 5

                             To accomplish our audit objectives, we performed the following procedures:

                                  •    Consolidated the results and issues from our prior IT security audit work.
                                       Our audit work consisted primarily of audit procedures found in the U.S.
                                       Government Accountability Office (GAO) Financial Information System
                                       Control Audit Manual;

                                  •    evaluated OCIO’s progress in implementing recommendations to correct
                                       material weaknesses identified in prior Office of Inspector General and
                                       GAO audit reports; and

                                  •    gathered the necessary information to address the specific reporting
                                       requirements outlined in Office of Management and Budget’s
                                       Memorandum No. M-06-20, dated July 17, 2006.




5
 The Department identified 260 systems in its plan of actions and milestones system as of July 2006. The data were input by the agencies
and had not been verified or audited. Based on independent auditor review of this data and inappropriate consolidation of systems, we
question the accuracy and reliability of the total number of systems reported.
USDA/OIG-A/50501-7-FM                                                                                                          Page 4
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                                                           Exhibit A – Page 1 of 17

Section C: Inspector General (IG) Questions

1. As required in Federal Information Security Management Act (FISMA), the IG shall
   evaluate a representative subset of systems, including information systems used or operated
   by an agency or by a contractor of an agency or other organization on behalf of an agency.
   By Federal Information Processing Standards (FIPS) Publication 199 risk impact level (high,
   moderate, low, or not categorized) and by bureau, identify the number of systems reviewed in
   this evaluation for each classification below (a., b., and c.).

    To meet the requirement for conducting a National Institute of Standards and Technology
    (NIST) Special Publication (SP) 800-26 review, agencies can (1) continue to use NIST
    SP 800-26, or (2) conduct a self-assessment against the controls found in NIST SP 800-53.

    Agencies are responsible for ensuring the security of information systems used by a
    contractor of their agency or other organization on behalf of their agency; therefore, self
    reporting by contractors does not meet the requirements of law. Self reporting by another
    Federal agency, for example, a Federal service provider, may be sufficient. Agencies and
    service providers have a shared responsibility for FISMA compliance.

    The U.S. Department of Agriculture (USDA) has approximately 26 agency and staff offices that
    OCIO estimate operate about 260 information systems. 6 We conducted reviews at 10 agencies that
    operated an estimated 172 systems. We reviewed 45 of the 172 systems. 7 One of the systems
    selected for review was a contractor operated system. We used FIPS Publication 199 8 risk impact
    levels for these systems as reported by OCIO. During our review of the Department’s system
    categorization efforts, we determined that system risk ratings based on confidentiality, integrity,
    and availability of the data residing on the system were inconsistent with FIPS requirements and
    agencies did not ensure that the risk ratings they assigned remained consistent throughout all of the
    system documentation. Without a proper risk level assignment, agencies cannot design adequate
    risk-based security programs to ensure appropriate security controls are in place to protect
    confidentiality, integrity, and availability of their information systems.




Exhibit A – OMB Reporting Requirements and USDA OIG Position
6
  The Department identified 260 systems in the Automated Security Self-Evaluation and Remediation Tracking (ASSERT) tool as of July
2006. Office of the Chief Information Officer’s (OCIO) data are agency-supplied and have not been verified or audited. In fiscal year
2005, OCIO reported 460 systems. Based on independent auditor verification we found one agency inventory count that went from 189
systems in fiscal year 2005 to 15 in fiscal year 2006. Nine of the 15 systems reported in fiscal year 2006 were consolidated based on
geographic region. In addition, an adequate reconciliation was not completed for systems reported from fiscal year 2005 to systems
reported in fiscal year 2006. A comparison of the 2 years revealed 26 systems missing from the reconciliation records.
7
  The depth and breadth of our reviews varied by audit.
8
  FIPS Publication 199, “Standards for Security Categorization of Federal Information and Information Systems,” dated December 2003.
USDA/OIG-A/50501-7-FM                                                                                                       Page 5
                                                                                                         Exhibit A – Page 2 of 17



       To the extent that agencies use the Department’s centralized data centers, our reviews help ensure
       that those centers take the necessary actions to meet the requirements of FISMA, OMB, and NIST
       guidelines. Agencies primarily use Office of Inspector General (OIG) audits to identify
       weaknesses in their management and oversight of contractors.

       USDA used the ASSERT tool to perform self-assessments based on NIST SP 800-26. 9 Our review
       of agency self-assessments showed that controls were assessed at incorrect levels and some
       controls were not reported at all. In addition, because self-assessments were not complete by the
       time we finished our audit work and because they were not scheduled to be reviewed and signed-
       off by agency personnel until September 29, 2006, we were unable to ensure the self-assessments
       were accurately reporting the status of controls within agency systems. Additionally, during our
       fiscal year 2006 review, OCIO had changed the level where a functional area is rated deficient and
       therefore needs a plan of action and milestone (POA&M). Through fiscal year 2005, deficiency
       was defined as a functional area rated at level 3 (procedures and controls are implemented) or less.
       For fiscal year 2006, that level had changed to 2 (documented procedures and controls) or less.
       This change requires agencies to report and remediate fewer weaknesses. OCIO was unable to
       provide an explanation to support this change in reporting weaknesses from agency self-
       assessments.

       Based on the OIG reviews performed throughout fiscal year 2006, we continued to find that not all
       agencies have followed NIST guidance when preparing security plans, risk assessments, and
       disaster recovery plans.




9
    NIST SP 800-26, “Security Self-Assessment Guide for Information Technology Systems,” dated November 2001.
USDA/OIG-A/50501-7-FM                                                                                                   Page 6
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                                                                     Exhibit A – Page 3 of 17

2. For each part of this question, identify actual performance in fiscal year 2006 by risk impact
   level and bureau, in the format provided. From the representative subset of systems
   evaluated, identify the number of systems which have completed the following; have a
   current certification and accreditation (C&A), a contingency plan tested within the past year,
   and security controls tested within the past year.

                                                     Question 1.                            Question 2. – Agency Reported
                                                                                                                          2.c. 12
                                                                                                           11
                                                                                                      2.b.             Number of
                                                                                                    Number of      systems for which
                                                                                                systems for which contingency plans
                                                          1.b.        1.c.          2.a 10       security controls have been tested
Bureau Name
                                                      Fiscal year Fiscal year    Number of       have been tested in accordance
   (OIG
                                            1.a.         2006     2006 Total systems certified and evaluated in with policy and
 Reviewed)
                    FIPS Risk        Fiscal year 2006 Contractor Number of     and accredited the last year. As         guidance
                   Impact Level      Agency Systems    Systems     Systems      As of 7/31/06       of 7/31/06       As of 7/31/06
                                                               #                     Percent of         Percent of         Percent of
                                     Total # # Rev. Total # Rev Total # # Rev Total # Total Total # Total Total # Total
1. APHIS                      High      8        1      0      0     8       1     6       75%       7      88%       4       50%

                        Moderate        9        0      0      0     9       0     7       78%       6      67%       2       22%

                              Low       3        0      0      0     3       0     0       0%        0       0%       0       0%

                  Not Categorized      24        0      0      0     24      0     0       0%        0       0%       0       0%

                  Sub-total            44        1      0      0     44      1     13      30%      13      30%       6       14%
                                        0        0      0      0     0       0     0       0%        0       0%       0       0%
2. DA                         High
                                        0        0      0      0     0       0     0       0%        0       0%       0       0%
                        Moderate
                                        0        0      0      0     0       0     0       0%        0       0%       0       0%
                              Low
                                        7        1      0      0     7       1     0       0%        0       0%       0       0%
                  Not Categorized
                                        7        1      0      0     7       1     0       0%        0       0%       0       0%
                  Sub-total
                                        0        0      0      0     0       0     0       0%        0       0%       0       0%
3. RMA                        High
                                        0        0      0      0     0       0     0       0%        0       0%       0       0%
(Includes FCIC)         Moderate
                                        0        0      0      0     0       0     0       0%        0       0%       0       0%
                              Low
                                        7        6      0      0     7       6     0       0%        0       0%       0       0%
                  Not Categorized
                                        7        6      0      0     7       6     0       0%        0       0%       0       0%
                  Sub-total
4. FSA
                                       18        6      0      0     18      6     18     100%      17      94%       17      94%
(includes CCC)                High
                        Moderate        2        0      0      0     2       0     2      100%       2      100%      2      100%

                              Low       1        0      0      0     1       0     1      100%       1      100%      1      100%
                                        0        0      0      0     0       0     0       0%        0       0%       0       0%
                  Not Categorized
                  Sub-total            21        6      0      0     21      6     21     100%      20      95%       20      95%

10
   OIG cannot determine an accurate number of systems that have an adequate C&A. The OCIO had stated that C&As prior to
October 1, 2005 were not adequate and would be corrected during the next review cycle. Our audits during fiscal year 2006 determined
that C&As are still inadequate and therefore we cannot attest to the accuracy of any number in this column.
11
   OIG cannot determine an accurate number of systems that have self-assessments completed. We found that the agencies were not
correctly reporting weaknesses and the system is not updated (it is not even required to be updated until September 29, 2006).
12
   The Department uses the Living Disaster Recovery Planning System (LDRPS) as a central repository to store information on
contingency plans and disaster recovery plans. Our review of that system found that not all plans were stored in LDRPS and that
information was inconsistent and did not meet NIST guidance. Therefore, we cannot attest to the accuracy of any number in this column.
USDA/OIG-A/50501-7-FM                                                                                                                   Page 7
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                                                                Exhibit A – Page 4 of 17


                                                 Question 1.                           Question 2. – Agency Reported
                                                                                                                     2.c. 15
                                                                                                 2.b. 14          Number of
                                                                                               Number of      systems for which
                                                                                           systems for which contingency plans
                                                    1.b.        1.c.           2.a 13       security controls have been tested
Bureau Name
                                                Fiscal Year Fiscal Year     Number of       have been tested in accordance
   (OIG
                                      1.a.         2006     2006 Total systems certified and evaluated in with policy and
 Reviewed)
                   FIPS Risk   Fiscal Year 2006 Contractor Number of      and accredited the last year. As         guidance
                  Impact Level Agency Systems    Systems     Systems       As of 7/31/06       of 7/31/06       As of 7/31/06
                                                         #                      Percent of         Percent of         Percent of
                                Total # # Rev. Total # Rev Total # # Rev Total # Total Total # Total Total # Total
5. FS                        High   6       0       0      0     6      0      0       0%       0       0%       0       0%
                                    8       5       0      0     8      5      0       0%       0       0%       0       0%
                       Moderate
                                    2       0       0      0     2      0      0       0%       0       0%       0       0%
                             Low
                                    0       0       0      0     0      0      0       0%       0       0%       0       0%
                 Not Categorized
                                    16      5       0      0    16      5      0       0%       0       0%       0       0%
                 Sub-total
                                    0       0       0      0     0      0      0       0%       0       0%       0       0%
6. FNS                       High
                       Moderate     7       1       3      1    10      2      9      90%       10     100%      10     100%

                             Low    0       0       0      0     0      0      0       0%       0       0%       0       0%

                 Not Categorized    1       0       0      0     1      0      0       0%       0       0%       0       0%

                 Sub-total          8       1       3      1    11      2      9      82%       10     91%       10      91%

7. RD                        High   0       0       0      0     0      0      0       0%       0       0%       0       0%

                       Moderate     11      1       0      0    11      1     11     100%       11     100%      11     100%

                             Low    3       0       0      0     3      0      0       0%       0       0%       0       0%

                 Not Categorized    9       0       0      0     9      0      0       0%       0       0%       0       0%

                 Sub-total          23      1       0      0    23      1     11      48%       11     48%       11      48%

8.OCFO - NFC                 High   5       5       0      0     5      5      4      80%       4      80%       4       80%

                       Moderate     6       4       0      0     6      4      6     100%       6      100%      6      100%

                             Low    0       0       0      0     0      0      0       0%       0       0%       0       0%

                 Not Categorized    3       0       0      0     3      0      0       0%       0       0%       0       0%

                 Sub-total          14      9       0      0    14      9     10      71%       10     71%       10      71%
9. OCIO
(includes ITS,                      8       5       0      0     8      5      5      63%       5      63%       5       63%
NITC, and TSO)               High
                       Moderate     11      7       0      0    11      7     11     100%       10     91%       11     100%

                             Low    6       1       0      0     6      1      6     100%       6      100%      6      100%

                 Not Categorized    1       0       0      0     1      0      0       0%       0       0%       0       0%

                 Sub-total          26      13      0      0    26      13    22      85%       21     81%       22      85%


13
   OIG cannot determine an accurate number of systems that have an adequate C&A. The OCIO had stated that C&As prior to
October 1, 2005 were not adequate and would be corrected during the next review cycle. Our audits during fiscal year 2006 determined
that C&As are still inadequate and therefore we cannot attest to the accuracy of any number in this column.
14
   OIG cannot determine an accurate number of systems that have self-assessments completed. We found that the agencies were not
correctly reporting weaknesses and the system is not updated (it is not even required to be updated until September 29, 2006).
15
   The Department uses the Living Disaster Recovery Planning System (LDRPS) as a central repository to store information on
contingency plans and disaster recovery plans. Our review of that system found that not all plans were stored in LDRPS and that
information was inconsistent and did not meet NIST guidance. Therefore, we cannot attest to the accuracy of any number in this column.
USDA/OIG-A/50501-7-FM                                                                                                              Page 8
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                                                                      Exhibit A – Page 5 of 17

                                                     Question 1.                         Question 2. – Agency Reported
                                                                                                         2.b. 17             2.c. 18
                                                                                                      Number of           Number of
                                                                                                     systems for      systems for which
                                                                                                    which security    contingency plans
                                                         1.b.         1.c.           2.a 16         controls have      have been tested
                                                     Fiscal Year  Fiscal Year     Number of        been tested and      in accordance
Bureau Name                     1.a.                    2006      2006 Total systems certified    evaluated in the     with policy and
   (OIG      FIPS Risk   Fiscal Year 2006            Contractor   Number of     and accredited     last year. As of        guidance
 Reviewed)  Impact Level Agency Systems               Systems      Systems       As of 7/31/06          7/31/06          As of 7/31/06
                                                               #                        Percent             Percent           Percent of
                                  Total #   # Rev.   Total # Rev Total # # Rev Total # of Total   Total # of Total    Total # Total
10. NRCS                   High     1         0         0          0   1     0    0      0%          0       0%          0       0%
                                    2         1         0          0    2    1    0      0%          0       0%          0       0%
                       Moderate
                                    0         0         0          0    0    0    0      0%          0       0%          0       0%
                           Low
                                    0         0         0          0    0    0    0      0%          0       0%          0       0%
               Not Categorized
                                    3         1         0          0    3    1    0      0%          0       0%          0       0%
               Sub-total
 USDA Totals               High     46       17         0          0   46    17   33    72%         33      72%         30      65%

                       Moderate     56       19         3          1   59    20   46    78%         45      76%         42      71%

                           Low      15        1         0          0   15    1    7     47%          7      47%          7      47%

               Not Categorized      52        7         0          0   52    7    0      0%          0      0%           0       0%

               Total               169       44         3          1   172   45   86    50%         85      49%         79      46%




16
   OIG cannot determine an accurate number of systems that have an adequate C&A. The OCIO had stated that C&As prior to
October 1, 2005 were not adequate and would be corrected during the next review cycle. Our audits during fiscal year 2006 determined
that C&As are still inadequate and therefore we cannot attest to the accuracy of any number in this column.
17
   OIG cannot determine an accurate number of systems that have self-assessments completed. We found that the agencies were not
correctly reporting weaknesses and the system is not updated (it is not even required to be updated until September 29, 2006).
18
   The Department uses the Living Disaster Recovery Planning System (LDRPS) as a central repository to store information on
contingency plans and disaster recovery plans. Our review of that system found that not all plans were stored in LDRPS and that
information was inconsistent and did not meet NIST guidance. Therefore, we cannot attest to the accuracy of any number in this column.
USDA/OIG-A/50501-7-FM                                                                                                                      Page 9
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                                                           Exhibit A – Page 6 of 17



3. In the format below, evaluate the agency’s oversight of contractor systems and agency system
   inventory.

     a. The agency performs oversight and evaluation to ensure information systems used or
        operated by a contractor of the agency or other organization on behalf of the agency meet
        the requirements of FISMA, OMB policy and NIST guidelines, national security policy,
        and agency policy. Self-reporting of NIST SP 800-26 and/or NIST SP 800-53
        requirements by a contractor or other organization is not sufficient; however, self-
        reporting by another Federal agency may be sufficient. (OIG’s response is underlined
        below.) Response Categories: 19

                •       Rarely, for example, approximately 0-50 percent of the time
                •       Sometimes, for example, approximately 51-70 percent of the time
                •       Frequently, for example, approximately 71-80 percent of the time
                •       Mostly, for example, approximately 81-95 percent of the time
                •       Almost Always, for example, approximately 96-100 percent of the time


                OCIO relies on agencies to perform oversight and evaluation to ensure information
                systems used or operated by a contractor of the agency or other organization on behalf of
                the agency meet the requirements of FISMA, OMB, and NIST. USDA employs
                contractors in many aspects of its system operations. Contractors are used for network
                administration, system development, and as system administrators. In conducting our
                agency reviews, testing of contractor operations had been limited to access controls,
                security clearances, security awareness training, and oversight by the agencies of
                contractor activities. Based on our reviews at 10 agencies, we found only limited
                evidence that the agencies had adequately employed methods to ensure that contractor
                provided services met the requirements of FISMA, OMB, and NIST guidelines. For
                example, we found inadequate oversight of both the contract and contractors in one audit
                of a major implementation of the nation-wide Universal Telecommunication Network
                (UTN). 20 We found that the agency had not conducted required failover testing, security
                control testing, and C&A of the UTN network before implementation. The agency did
                not have controls in place to ensure adequate contractor testing of the network prior to
                implementation.




19
   Based on consolidation of systems and an unreliable reconciliation we could not determine an accurate systems inventory. We cannot
give a percentage with any degree of accuracy.
20
   Audit Report No. 88501-6-FM, “Management and Security over the USDA Universal Telecommunication Network,” dated August
2006.
USDA/OIG-A/50501-7-FM                                                                                                     Page 10
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                                                           Exhibit A – Page 7 of 17

    b.1 The agency has developed an inventory of major information systems (including major
        national security systems) operated by or under the control of such agency, including an
        identification of the interfaces between each such system and all other systems or
        networks, including those not operated by or under the control of the agency. (OIG’s
        response is underlined below.) Response Categories:

                •       Approximately 0-50 percent complete
                •       Approximately 51-70 percent complete
                •       Approximately 71-80 percent complete
                •       Approximately 81-95 percent complete
                •       Approximately 96-100 percent complete

                We could not report a percentage with any degree of accuracy. Based on our reviews, we
                have documented evidence that the Department did not have a reliable inventory of
                applications and general support systems from which to manage Departmentwide IT
                security. The Department relied on agencies to provide a comprehensive list; however,
                OCIO was unable to verify the accuracy or reliability of those agency-provided
                inventories due to limited resources. OIG was not involved in the development and
                verification of agencies’ information technology (IT) system inventories and their
                interfacing systems and networks. Our review of the Department’s inventory system
                showed the total number of systems declined from 460 in fiscal year 2005 to only 260 21
                in fiscal year 2006. The vast majority of this decline was a consolidation of systems in
                one agency. That agency went from 189 systems to 15. Most of the consolidation was
                done by geographical areas of the country. The Department also did not attempt to
                reconcile fiscal year 2005 inventory numbers to fiscal year 2006. During our review we
                found 26 systems were missing between the 2 years and the OCIO had to request
                additional information from the agencies to determine the cause. While we agree that
                OCIO’s current list of major applications provides a good starting point, OCIO needs to
                be fully aware of all applications and general support systems that reside on the
                Department’s network to ensure that agencies are in compliance with OMB and FISMA
                requirements, and to effectively manage the Department’s security program.

                In another audit we found that an agency consolidated seven systems involving more than
                50 business applications that supported their core mission. 22 These applications were in
                mixed stages of the system development life cycle and used different technologies,
                including mixed program specific applications alongside administrative applications (i.e.,
                time and attendance).
21
   This is an estimate of the number of systems based on agencies reporting to OCIO. OCIO did not validate this number. Therefore, we
could not attest to its accuracy.
22
   Audit Report No. 10501-5-FM, “NRCS Application Controls-Program Contracts System (ProTracts),” dated July 2006.
USDA/OIG-A/50501-7-FM                                                                                                     Page 11
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                               Exhibit A – Page 8 of 17

          Furthermore, the consolidation of systems led to inadequate oversight of the
          Department’s Privacy Act implementation.         We found, because of the system
          consolidation going on within the Department, that it was difficult to determine which
          systems had the required documentation and had complied with the law. We reviewed 13
          privacy impact assessments and found that 6 did not answer one or more of the questions
          adequately and another one was not in the required format. We also found that 2 of the
          Statement of Record Notices required by law, were not published in the Federal Register.

       b2. If the agency IG does not evaluate the agency's inventory as 96-100 percent
           complete, please list the systems that are missing from the inventory.

          As reflected in our response to 3.b.1, during our review we found 26 systems missing
          from the inventory. The OCIO was researching these systems to determine whether they
          were retired or it was an error. We cannot be assured that these were actually missing.
          We did not audit the entire inventory listing and could not determine if the listing was
          accurate or there were other systems missing.

       c. The OIG generally agrees with the Chief Information Officer (CIO) on the number
          of agency owned systems. Yes or No.

          As reflected in our response to question 3.b., we did not generally agree with the number
          of agency owned systems.

       d. The OIG generally agrees with the CIO on the number of information systems used
          or operated by a contractor of the agency or other organization on behalf of the
          agency. Yes or No.

          We do not generally agree. As stated in our response to question 3.a. above, the number
          of systems within the Department (both Department and contractor administered) can not
          be relied upon until OCIO validates the number of systems within the Department and
          establishes controls to maintain an accurate inventory.

       e. The agency inventory is maintained and updated at least annually. (OIG’s response
          is underlined.) Yes or No.

          During fiscal year 2006, OCIO implemented an annual inventory requirement. However,
          we question the accuracy of the system inventory because, as mentioned in response to
          question 3.a., OCIO relied on the agencies to report system inventory. Further, OCIO
          was unable to verify the accuracy or reliability of those agency-provided inventories.



USDA/OIG-A/50501-7-FM                                                                        Page 12
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                                                          Exhibit A – Page 9 of 17


           f. The agency has completed system e-Authentication risk assessments. (OIG’s
              response is underlined.) Yes or No.

                During fiscal year 2006, OCIO performed a security review of e-authentication and found
                the same issues we had reported in our fiscal year 2005 FISMA report. Specifically:

                      •     New interfaces and updated system security architecture were not in the current
                            documentation;

                      •     the security plan had not been updated in 2 years, although changes to the system
                            had been made; and

                      •     documented processes did not exist for contractor account removal, incident
                            responses, and responsible individuals had not been trained.


4. Through this question, and in the format provided below, assess whether the agency has
   developed, implemented, and is managing an agency wide POA&M process. Evaluate the
   degree to which the following statements reflect the status in your agency by choosing from
   the responses provided in the drop down menu. If appropriate or necessary, include
   comments in the area provided below. (OIG’s response is underlined.) 23

    For items 4a.-4.f, the response categories are as follows:

           •              Rarely, for example, approximately 0-50 percent of the time
           •              Sometimes, for example, approximately 51-70 percent of the time
           •              Frequently, for example, approximately 71-80 percent of the time
           •              Mostly, for example, approximately 81-95 percent of the time
           •              Almost Always, for example, approximately 96-100 percent of the time




23
   OIG cannot determine an accurate number of systems that have self-assessments completed, which is the first part of the POA&M
process. We found that the agencies were not correctly reporting weaknesses and the system was not updated (it is not required to be
updated until September 29, 2006). Therefore, we cannot provide an accurate percentage.
USDA/OIG-A/50501-7-FM                                                                                                    Page 13
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                                                            Exhibit A – Page 10 of 17


              The Department implemented a new system to track plan of actions and milestones
              (POA&M) during fiscal year 2006. While there was a marked improvement over the legacy
              reporting system, numerous problems were encountered during implementation. Specifically,
              we found that known IT weaknesses were not reported, not all weaknesses were tracked,
              conflicting information was reported, and agencies did not ensure that corrective actions were
              taken before closing out the weaknesses. In addition, the information contained in the system
              was not being used to report to OMB. One agency reported no weaknesses in the quarterly
              OMB submission, even though the system included 35 open weaknesses and its yearly
              internal self assessment reported 349 weaknesses.

              Also, the Department was incorrectly reporting risk categories that are not in accordance with
              FIPS Publication 199. 24 For example, we found two general support systems rated as
              moderate, even though there were 18 high risk systems that store or transmit data over the
              network. In another example, a system which stores information on biological agents and
              toxins was rated moderate.

              In addition, annual risk assessments within the Department were not reporting actual controls
              within the systems. One agency reported that change management was fully implemented,
              yet our audit disclosed that its policies and procedures were ineffective. In another
              assessment the agency listed 93 controls as not applicable because the hosting agency was
              responsible for them. Our audit disclosed that the controls did belong to the agency and
              should have been assessed. Finally, during our fiscal year 2006 review, we determined that
              the OCIO had changed the level where a functional area is rated deficient and therefore needs
              a POA&M. Through fiscal year 2005, deficiency was defined as a functional area rated at
              level 3 (procedures and controls are implemented) or less. For fiscal year 2006, that level had
              changed to 2 (documented procedures and controls) or less. This change required agencies to
              report and remediate fewer weaknesses. OCIO was unable to provide an explanation to
              support this change in reporting weaknesses from agency self-assessments.

              Finally, the Department had implemented a security review program to periodically evaluate
              the accuracy of information provided by the agencies and provide effective oversight of
              agency security programs. However, we found this program needed improvement. We
              found that in the 8 reviews performed, there were 123 weaknesses identified by the OCIO.
              Of those, only 52 were identified in the agencies’ POA&Ms. This occurred because the
              Department did not followup on findings to ensure the agencies were mitigating the
              weaknesses. In addition, the reviews did not use checklists for consistent reporting nor did
              they keep documented records of findings.




24
     FIPS Publication 199, “Standards for Security Categorization of Federal Information and Information Systems,” dated December 2003.
USDA/OIG-A/50501-7-FM                                                                                                       Page 14
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                             Exhibit A – Page 11 of 17


       We found that reporting of the USDA’s Information Security Status (scorecard) needed
       improvement. Agencies were not properly reporting the status of their programs in the
       monthly or quarterly updates to OMB. As noted in this report, we found inaccurate reporting
       by the agencies in every category except security awareness training.

       a. The POA&M is an agency wide process, incorporating all known IT security
          weaknesses associated with information systems used or operated by the agency or
          by a contractor of the agency or other organization on behalf of the agency. (OIG’s
          response is underlined.) Response Categories:

            •   Rarely, for example, approximately 0-50 percent of the time
            •   Sometimes, for example, approximately 51-70 percent of the time
            •   Frequently, for example, approximately 71-80 percent of the time
            •   Mostly, for example, approximately 81-95 percent of the time
            •   Almost Always, for example, approximately 96-100 percent of the time


       b. When an IT security weakness is identified, program officials (including CIOs, if
          they own or operate a system) develop, implement, and manage POA&Ms for their
          system(s). (OIG’s response is underlined below.) Response Categories:

            •   Rarely, for example, approximately 0-50 percent of the time
            •   Sometimes, for example, approximately 51-70 percent of the time
            •   Frequently, for example, approximately 71-80 percent of the time
            •   Mostly, for example, approximately 81-95 percent of the time
            •   Almost Always, for example, approximately 96-100 percent of the time


       c. Program officials, including contractors, report to the CIO on a regular basis (at
          least quarterly) on their remediation progress. (OIG’s response is underlined
          below.) Response Categories:

            •   Rarely, for example, approximately 0-50 percent of the time
            •   Sometimes, for example, approximately 51-70 percent of the time
            •   Frequently, for example, approximately 71-80 percent of the time
            •   Mostly, for example, approximately 81-95 percent of the time
            •   Almost Always, for example, approximately 96-100 percent of the time




USDA/OIG-A/50501-7-FM                                                                       Page 15
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                               Exhibit A – Page 12 of 17



       d. CIO centrally tracks, maintains, and reviews POA&M activities on at least a
          quarterly basis. (OIG’s response is underlined below.) Response Categories:

           •       Rarely, for example, approximately 0-50 percent of the time
           •       Sometimes, for example, approximately 51-70 percent of the time
           •       Frequently, for example, approximately 71-80 percent of the time
           •       Mostly, for example, approximately 81-95 percent of the time
           •       Almost Always, for example, approximately 96-100 percent of the time


       e. OIG findings are incorporated into the POA&M process.                (OIG’s response is
          underlined below.) Response Categories:

           •       Rarely, for example, approximately 0-50 percent of the time
           •       Sometimes, for example, approximately 51-70 percent of the time
           •       Frequently, for example, approximately 71-80 percent of the time
           •       Mostly, for example, approximately 81-95 percent of the time
           •       Almost Always, for example, approximately 96-100 percent of the time


       f. POA&M process prioritizes IT security weaknesses to help ensure significant IT
          security weaknesses are addressed in a timely manner and receive appropriate
          resources. (OIG’s response is underlined below.) Response Categories:

           •       Rarely, for example, approximately 0-50 percent of the time
           •       Sometimes, for example, approximately 51-70 percent of the time
           •       Frequently, for example, approximately 71-80 percent of the time
           •       Mostly, for example, approximately 81-95 percent of the time
           •       Almost Always, for example, approximately 96-100 percent of the time

           Based on our analysis of previous audit findings and the POA&Ms, we continued to
           find that agencies were experiencing logical access control weaknesses, because
           policies and procedures were not in place to (1) timely remove user accounts when no
           longer needed, (2) periodically reconcile user accounts to current employees and
           contractors, and (3) assign users only those permissions needed to perform their job
           responsibilities. In addition, agencies had inadequate controls over the following:

               •    Physical access to computer systems and critical network components,
               •    network resource scans,
               •    risk assessments,


USDA/OIG-A/50501-7-FM                                                                         Page 16
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                                                       Exhibit A – Page 13 of 17



                     •   contingency plans,
                     •   contingency plan testing,
                     •   patch management,
                     •   system documentation and change management,
                     •   system development life cycle procedures,
                     •   memorandums of understanding or service level agreements with interconnecting
                         systems, and
                     •   oversight of partnering organizations.

5. OIG Assessment of the C&A process. OMB is requesting IGs to provide a qualitative
   assessment of the agency’s C&A process, including adherence to existing policy, guidance,
   and standards. Agencies shall follow NIST SP 800-37, “Guide for the Security Certification
   and Accreditation of Federal Information Systems,” dated May, 2004, for C&A work
   initiated after May, 2004. This includes use of the FIPS Publication 199 (February, 2004),
   “Standards for Security Categorization of Federal Information and Information Systems,” to
   determine an impact level, as well as associated NIST documents used as guidance for
   completing risk assessments and security plans. Response Categories: 25

         •    Excellent
         •    Good
         •    Satisfactory
         •    Poor
         •    Failing

         Agencies have not followed NIST guidance when preparing security plans, risk assessments,
         and disaster recovery plans. Also, the Department had acknowledged that C&A documentation
         submitted prior to October 1, 2005 was inadequate and instituted a concurrency review where
         second party approval was required prior to accreditation. We found this process was
         inadequate in all three concurrency reviews we examined and that those systems should not
         have been accredited.

         Also, the Department did not always accurately report compliance with C&A requirements in
         the quarterly report to OMB. We found that eight systems were included in the quarterly count
         that had only obtained a conditional approval to operate. This is contrary to OMB policy,
         which states that an information system is not to be accredited during the period of limited
         authorization to operate. 26


25
   OIG cannot determine an accurate number of systems that have an adequate C&A. The OCIO had stated that C&As prior to October
1, 2005 were not adequate and would be corrected during the next review cycle. Our audits during fiscal year 2006 determined that
C&As were still inadequate, therefore we cannot attest to the accuracy of any number because we consider the process to be flawed.
Therefore, we cannot provide an accurate percentage.
26
   OMB Circular No. A-130, Appendix III, “Security of Federal Automated Information Resources,” dated November 28, 2000.
USDA/OIG-A/50501-7-FM                                                                                                  Page 17
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                                                Exhibit A – Page 14 of 17



         Finally, the Department’s oversight of contingency planning and testing information was
         inadequate. We reviewed the Department’s system for storing contingency and disaster
         recovery plans and found some were missing completely while others were missing critical
         information. We examined a sample of five test plans and found that they lacked specific
         success criteria, detailed schedules, scenarios and notification procedures and/or internal and
         external connectivity.

6. Configuration Management.

     a. Is there an agencywide security configuration policy? (OIG’s response is underlined.)
        Yes or No.

         The Departmentwide security configuration policy needed to be updated. The Department does
         not have updated configuration guides available for all of the products listed in the table below.

         We determined that the configuration policy needs to be revised to include security policies for
         Windows 2003 Server, Cisco Router Internetwork Operating System, and Oracle software. We
         determined that OCIO provided the agencies with security assessment guidelines for the
         Windows XP Professional, Windows NT, Windows 2000 Professional, Windows 2000 Server,
         Solaris, HP-UX, and Linux operating systems. 27 In addition, the Department had similar
         security assessment guidelines for mainframe, classified systems, personal electronic devices,
         telecommunications, Web farms, and AS400s. Security guidelines are also in force for wireless
         devices, laptops, physical security, privacy of systems, classified systems, and information
         systems security.

         Despite the guidance we found that configuration management within the Department was
         ineffective. We completed four stand-alone IT security audits that fed into our FISMA
         consolidation. We also ensured that the IT security audit coverage for our fiscal year 2006
         financial statement audits was completed in time to be consolidated into our FISMA report.
         We found that agencies’ change management practices were ineffective. Although most had
         polices and procedures, we found that they were not being followed. We found that controls
         did not exist to ensure that system software changes were properly authorized, documented,
         tested, and monitored.




27
  DM 3540-002, “Risk Assessment and Security Checklists,” Chapter 8, Part 2, August 19, 2004.
USDA/OIG-A/50501-7-FM                                                                                          Page 18
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                                                            Exhibit A – Page 15 of 17

          We noted that the Department’s vulnerability scanning and patch management program needed
          improved oversight. We found that the number of devices that needed scanning significantly
          varied on a monthly basis. In addition, at one agency, we found that 6,270 devices needed
          scanning and 10,505 devices needed patches. 28 We also noted unmitigated vulnerabilities that
          were not reported as weaknesses on agency POA&Ms. The OCIO did not review the scan and
          patch certificates for accuracy or viability.

          Also, agencies were required to submit POA&Ms for vulnerabilities unmitigated within 30
          days. Our review of the POA&Ms dated July 28, 2006 showed only one agency had actually
          reported a weakness related to scanning vulnerabilities. Finally, OCIO was unable to provide
          documentation that all agencies had submitted certificates for the month of April 2006. Of the
          26 agencies, OCIO was able to provide only 18 submitted scanning certificates.


     b. Configuration guides are available for the products listed below. Identify which software
        is addressed in the agency wide security configuration policy. Indicate whether or not
        any agency systems run the software. In addition, approximate the extent of
        implementation of the security configuration policy on the systems running the software.
        (OIG’s response is underlined.) Yes or No.


      Product                      Addressed in          Do any agency systems   Approximate the extent of implementation of the security
                                   agencywide policy?    run this software?      configuration policy on the systems running the software.
                                   Yes, No, or N/A.      Yes or No.
1     Window XP Professional               Yes                     Yes           Rarely, or, on approximately 0-50 percent of the systems
                                                                                 running this software
2     Windows NT                           Yes                    Yes            Rarely, or, on approximately 0-50 percent of the systems
                                                                                 running this software
3     Windows 2000 Professional            Yes                    Yes            Rarely, or, on approximately 0-50 percent of the systems
                                                                                 running this software
4     Windows 2000 Server                  Yes                    Yes            Rarely, or, on approximately 0-50 percent of the systems
                                                                                 running this software
5     Windows 2003 Server                  No                     Yes            Rarely, or, on approximately 0-50 percent of the systems
                                                                                 running this software
6     Solaris                              No                     Yes            Rarely, or, on approximately 0-50 percent of the systems
                                                                                 running this software
7     HP-UX                                No                     Yes            Rarely, or, on approximately 0-50 percent of the systems
                                                                                 running this software
8     Linux                                No                     Yes            Rarely, or, on approximately 0-50 percent of the systems
                                                                                 running this software
9     Cisco Router IOS                     No                     Yes            Rarely, or, on approximately 0-50 percent of the systems
                                                                                 running this software
10    Oracle                               No                     Yes            Rarely, or, on approximately 0-50 percent of the systems
                                                                                 running this software
11    Other (see narrative)                N/A                    N/A            Rarely, or, on approximately 0-50 percent of the systems
                                                                                 running this software




28
  Scanning should be performed on all devices on the network, while patching is done only as new vulnerabilities are found and vendors
mitigate them. The number of devices patched should not significantly outnumber the total number of devices scanned.
USDA/OIG-A/50501-7-FM                                                                                                         Page 19
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                                 Exhibit A – Page 16 of 17

7. Indicate whether or not the following policies and procedures are in place at your agency. If
   appropriate or necessary, include comments in the area provided below.

   a. The agency follows documented policies and procedures for identifying and reporting
      incidents internally. (OIG’s response is underlined.) Yes or No.

      We noted that incident reporting within the Department needed improvement. We found that
      incidents were not always tracked, reported to appropriate authorities, and/or closed timely.
      For example, our review of incidents reported through July 15, 2006, disclosed that (1)
      incidents were not always closed within 30 days, (2) incidents were missing from the tracking
      spreadsheet, (3) incidents were not always reported to appropriate authorities, and (4) false
      positives documentation was deleted and not further tracked, even though some were found to
      be actual incidents. In addition, we found that an incident tracking database had not been
      implemented, even though we had initially recommended that this weakness be remediated
      during fiscal year 2002 and the Department agreed to do so.

      Finally, the Department needed an internet protocol (IP) address inventory system. We have
      reported since fiscal year 2001 that the Department needs an IP address tracking system, and
      yet it is still not in production. The Department had a contract to develop the database, but it
      was not yet operational.


   b. The agency follows documented policies and procedures for external reporting to law
      enforcement authorities. (OIG’s response is underlined.) Yes or No.

      During our review we found that OCIO was not informing law enforcement of incidents for a
      significant portion of the year. OCIO informed us that it did not know that it was a
      requirement.


   c. The agency follows defined procedures for reporting to the United States Computer
      Emergency Readiness Team (US-CERT). http://www.us-cert.gov. (OIG’s response is
      underlined.) Yes or No.

      We found that OCIO was not reporting all incidents to US-CERT. During our review we found
      that 18 incidents were not reported to US-CERT. We were informed that these were false
      positives. When we requested documentation on 6 of these proving that they were, in fact,
      false positives, OCIO was unable to provide any documents. When they requested additional
      information from the agencies, it was determined that 2 of these were not false positives and
      should have been forwarded to US-CERT. The OCIO agreed to research the remaining 12 to
      determine whether they should have been reported.


USDA/OIG-A/50501-7-FM                                                                           Page 20
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                                  Exhibit A – Page 17 of 17



  8. Has the agency ensured security training and awareness of all employees, including
  contractors and those employees with significant IT security responsibilities? (OIG’s
  response is underlined below.) Response Choices include:

     •   Rarely, or, approximately 0-50 percent of employees have sufficient training
     •   Sometimes, or approximately 51-70 percent of employees have sufficient training
     •   Frequently, or approximately 71-80 percent of employees have sufficient training
     •   Mostly, or approximately 81-95 percent of employees have sufficient training
     •   Almost Always, or approximately 96-100 percent of employees have sufficient training

     Our review did confirm that the Department was adequately obtaining basic security and
     awareness training. We found over 98 percent of the Department’s employees had the training.
     However, our audits have shown that agencies did not adequately track their contractors, and
     therefore, have difficulty in ensuring that they receive the required annual security training.


  9. Does the agency explain policies regarding peer-to-peer file sharing in IT security
  awareness training, ethics training, or any other agency wide training? (OIG’s response is
  underlined.) Yes or No

  USDA explains peer-to-peer file sharing policy in the IT security awareness training. Further,
  DM 3525-002, dated July 15, 2004, states that USDA has a long-established policy that does not
  condone or support employees’ use of Government computers or networks for unauthorized
  purposes such as the use of peer-to-peer programs and other programs that perform these functions.

  Our review confirmed that peer-to-peer file sharing was addressed in the Security Literacy and
  Basics course available on AgLearn and OCIO Cyber Security’s security awareness training disk.
  The course teaches that peer-to-peer software are programs that link computers together across the
  internet for the purpose of sharing files, music, and videos and peer-to-peer software traditionally
  bypasses security controls and client/server networks that exist in business and Government
  offices. Because peer-to-peer software bypasses the USDA network security checks and balances,
  the installation of peer-to-peer software is prohibited at USDA. In addition, OCIO tracks and
  sends out periodic emails to agencies informing them of peer-to-peer activity on their networks.
  Although they issue listings of IP addresses with this activity, they do not block this traffic at the
  firewall.




USDA/OIG-A/50501-7-FM                                                                            Page 21
Exhibit B – Audits Referenced to in the Report
                                                                           Exhibit B – Page 1 of 1




                                                                    Estimated Issue
 Audit Report No.                        Title                           Date
                        Audit of Fiscal Year 2006 Federal Crop
   05401-15-FM                                                      November 2006
                     Insurance Corporation’s Financial Statements
                       Audit of Commodity Credit Corporation’s
   06401-21-FM                                                      November 2006
                         Fiscal Year 2006 Financial Statements
                       Audit of Fiscal Year 2006 Forest Services
   08401-7-FM                                                       November 2006
                                 Financial Statements
                       National Resources Conservation Service
   10501-5-FM         Applications Controls – Program Contracts        July 2006
                                        System
                      Fiscal Year 2006 – National Finance Center
   11401-24-FM                                                      September 2006
                                   General Controls
   50401-59-FM      Fiscal Year 2006 USDA Financial Statements      November 2006
                      Review of Dedicated Loan Origination and
   85501-1-FM         Servicing System’s Application Controls –      October 2006
                                   Fiscal Year 2006
                          Management and Security Over the
   88501-6-FM               U.S. Department of Agriculture           August 2006
                       Universal Telecommunications Network
                    Information Technology Services (ITS) General
   88501-7-FM                                                        October 2006
                          Controls Review – Fiscal Year 2006
                       National Information Technology Center
   88501-9-FM                                                       September 2006
                      General Controls Review - Fiscal Year 2006




USDA/OIG-A/50501-7-FM                                                                  Page 22
